                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

11   Case Number: A-08020006
                                                                                    11          Page 1 of 1



             We received an allegation of intellectual theft fi-om the PI (the complainant) on the NSF
             proposal.1 The complainant alleged that the subject misappropriated some of the proposal's
             research ideas in a publication.3

              Our review showed the subject and the complainant worked in the same area of research and
              both had been doing so for many years. We compared the subject's publication with the
              complainant's proposal as well as other publications by both. Although the subject's paper does
              discuss similar work to what was presented in the complainant's proposal, there was insufficient
              evidence to support the subject's inappropriate use of the complainant work, especially given the
              common research work pursed by both the complainant's and the subject's laboratories.

              This case is closed and no further action will be taken.




I
    NSF OIG Form 2 (1 1/02)
